                            NATIONAL SCIENCE FOUNDATION
                                   4201 Wilson Boulevard
                                 ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL



MEMORANDUM

DATE:       March 4, 2009

TO:         Mary Santonastasso
            Division of Institution and Award Support

THRU        Jannifer C. Jenkins /s/
            Senior Audit Manager

FROM:       Sherrye McGregor
            Attorney-Advisor

SUBJECT: NSF OIG Audit Report No. OIG-09-1-003
         Bermuda Institute for Ocean Sciences
         Audit Report on Financial Capability

In response to NSF’s request for audit support, we contracted with the Defense Contract Audit
Agency (DCAA), Tampa Bay Branch Office, to examine the financial condition and capability
of Bermuda Institute for Ocean Sciences (BIOS). The purpose of a financial capability
examination is to determine if BIOS has adequate financial resources to perform on Government
grants in the current and near-term (up to one year from the date of the DCAA report.) BIOS
had 31 active multi-year NSF awards aggregating at approximately $28.4 million during FY
2008. Most of the awards are funded by NSF’s Division of Ocean Sciences and include one
large award (OCE-0505888) for $8.3 million for the operation of the Atlantic Explorer Research
Vessel.

The objectives of the financial capability audit were designed to examine BIOS’ financial
condition to determine if the grantee has adequate financial resources to perform on Government
grants in the near-term. To meet the audit objectives, DCAA: 1) examined the grantee’s audited
financial statements and interim statements (CY 2005 through 2007 and interim for the period
ended June 30, 2008); 2) examined BIOS’ cash flow projections; 3) determined currency in
liquidating its accounts; 4) reviewed tax payments, 5) examined net worth, working capital and
key financial ratios; 6) determined BIOS’ compliance with loan agreements; and 7) examined
changes in net worth. The audit was performed in accordance with Generally Accepted
Government Auditing Standards.
The results of DCAA’s audit on BIOS’ financial capability are summarized below. The DCAA
audit report is attached.

Other Matters from Recently Issued BIOS Audits

The OIG previously issued two DCAA audit reports: one on the adequacy of BIOS’ Accounting
System; and, one on Multi-Year Incurred Costs Claimed under NSF awards and Final Indirect
Cost Rates for FY 2005. 1 As we previously reported to NSF, DCAA considered BIOS’
accounting system inadequate in part, because BIOS does not routinely adjust its accounting
records to reflect actual indirect costs on its federally funded controls and awards. When BIOS’
records do not reflect its actual indirect costs, the true total cost of the research is not captured or
recovered from the federal agency, where allowed. However, it was determined that BIOS is
accurately billing NSF indirect expenses on its awards. This accounting issue does not affect the
scope of this financial capability audit. The scope of this audit reflects DCAA’s assessment of
control risk and includes audit tests designed to provide a reasonable basis for DCAA’s opinion
on BIOS’ financial capability.

Summary Results of the Audit

The results of the financial capability review indicate that BIOS’ financial condition is
acceptable for performing on Government grants in the near-term – defined as one year from the
date of the DCAA report through October 31, 2009.

Results of Audit of Financial Capability

DCAA’s analysis of each issue in the scope of the audit is addressed in length in the Appendix to
DCAA’s report. Highlights of those notes include:

    •   BIOS’ net increase in cash from all sources rose from xxxxxxxxxxxxxxxxxxxxxx
        xxxxxxxxxxxxxxxxxxxxx in 2007, the first full year of operation of the Atlantic
        Explorer.)
    •   BIOS’ projected adequate cash flow through March 2009 and the projections are
        reasonable.
    •   BIOS is liquidating its accounts payable on a timely basis.
    •   Key Financial Ratios computed using BIOS’ financial statement data are mostly
        favorable, with few exceptions. (Note 5 in Appendix A of the DCAA report contains
        Key Financial Ratios, which are important to this examination and may be important to
        track in analyzing BIOS’ future financial condition through its financial statements.)
    •   Long-term liabilities, although fluctuating during the period examined, do indicate a
        downward trend. Decrease in debt indicates that BIOS has not obtained
        any new debt and has been making payments on its existing debt.

1
  NSF OIG Audit Report No. OIG-07-1-018, Post Award Accounting System Audit of Bermuda Institute of Ocean Sciences,
dated September 27, 2007; NSF OIG Audit Report No. OIG-08-1-008, Bermuda Institute of Ocean Sciences Multi-Year
Incurred Cost Audit and FY 2005 Final Indirect Rates, dated March 26, 2008.




                                                        2
   •   BIOS’ net worth increased during the period examined.
   •   Unrestricted Net Assets and Total Net Assets increased over the period of the
       examination.
   •   BIOS appears to have sufficient working capital to support operations and liquidate
       current liabilities.
   •   BIOS is current in paying its payroll taxes.
   •   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   •   Other income, reclassifications and Trustee Loans did not reflect any irregularities.
   •   BIOS’ current ratio, which indicates adequate current assets to cover current obligations
       and the quick ratio, which indicates the ability to meet all short-term obligations with
       assets readily converted to cash, are both considered to be favorable indicators of BIOS’
       financial condition.
   •   BIOS reported xxxx xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   •   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

BIOS concurred with the results of the DCAA audit.

Because the scope of DCAA financial analysis is limited to one year from the date of the report,
if NSF has future concerns about BIOS’ financial capability, we suggest that NSF continue to
monitor the financial condition of BIOS by annually reviewing financial statements and key
financial ratios, as well as review BIOS’ annual OMB A-133 audits, and related management
letters issued by BIOS’ auditors.

We are providing a copy of this memorandum to the NSF Division Director of Ocean Sciences
(OCE) and the Program Official responsible for making ship operation funding
recommendations for OCE. The responsibility for audit resolution rests with DIAS.
Accordingly, we ask that no action be taken concerning the report’s findings without first
consulting DIAS at (703) 292-8230.



OIG Oversight of Audit

To fulfill our responsibilities under Generally Accepted Government Auditing Standards, the
Office of Inspector General:

   •   Reviewed DCAA’s approach and planning of the audit;
   •   Monitored the progress of the audit at key points;



                                               3
      •   Coordinated periodic meetings with DCAA and NSF officials as necessary to discuss
          audit progress, findings, and recommendations;
      •   Reviewed the audit report prepared by DCAA to ensure compliance with Generally
          Accepted Government Auditing Standards and Office of Management and Budget
          Circulars; and
      •   Coordinated issuance of the audit report.

DCAA is responsible for the attached auditor’s report on BIOS and the conclusions expressed in
the report. The NSF OIG does not express any opinion on BIOS’ financial condition, financial
statements, ability to operate in the near- or long- term, or the conclusions presented in DCAA’s
audit report.

We thank you and your staff for the assistance extended to us during the audit. If you have any
questions about this report, please contact Sherrye McGregor at (703) 292-5003 or Jannifer
Jenkins at (703) 292-4996.




Attachment: DCAA Audit Report No. 1271-2008F17600005, Audit Report on Financial Capability of
Bermuda Institute of Oceans Sciences, Inc.


cc:       Julie D. Morris, Division Director, OCE
          Linda Goad, Program Officer, OCE
          Carol Orlando, Cost Analyst, CAAR
          Karen Tiplady, Director, DGA




                                                    4
              DEFENSE CONTRACT AUDIT AGENCY

              AUDIT REPORT NO. 1271-2008F17600005

                                                                   October 31, 2008

PREPARED FOR: Office of Inspector General
              ATTN: Ms. Deborah H. Cureton, Associate Inspector General for Audit
              National Science Foundation
              4201 Wilson Boulevard
              Arlington, Virginia 22230

PREPARED BY:       DCAA Tampa Bay Branch Office
                   10200 49th Street North, Suite 201
                   Clearwater, FL 33762-5030
                       Telephone No.      (727) 299-1100
                       FAX No.             (727) 299-1135
                       E-mail Address     dcaa-fao1271@dcaa.mil

SUBJECT:           Audit Report on Financial Capability

REFERENCES:        Relevant Dates: See Page 7
                   DCAA Chron. No.: 9-9003

GRANTEE:           Bermuda Institute of Ocean Sciences, Inc.
                   Formerly Bermuda Biological Station for Research, Inc.
                   17 Biological Lane, Ferry Reach
                   St. George’s GE 01, Bermuda

REPORT RELEASE RESTRICTIONS: See Page 8

                                                                                      Page
CONTENTS:          Subject of Audit                                                    1
                   Executive Summary                                                   1
                   Scope of Audit                                                      2
                   Results of Audit                                                    3
                   Grantee Organization and Systems                                    5
                   DCAA Personnel and Report Authorization                             7
                   Audit Report Distribution and Restrictions                          8
                   Appendix – Key Financial Data and Information                       9




                                XXXXXXXXXXXXXX
Audit Report No. 1271-2008F17600005

                                     SUBJECT OF AUDIT

     As requested by the National Science Foundation (NSF) in an email request received on
December 7, 2007, and as coordinated with Ms. Sherrye L. McGregor, Attorney Advisor, we
examined the Bermuda Institute of Ocean Sciences, Inc.’s (BIOS) financial condition and
capability to determine if the grantee has adequate financial resources to perform on Government
grants in the current and near-term (up to one year from the date of this report). Our
examination included an evaluation of the grantee’s audited financial statements as of December
31, 2005 through 2007, and interim financial statements for the period ended June 30, 2008. We
also evaluated BIOS cash flow forecast through March 31, 2009.

    The grantee's financial records and related supporting data are the responsibility of the
grantee. Our responsibility is to express an opinion on the grantee's financial capability based on
our examination.


                                  EXECUTIVE SUMMARY

    In our opinion, the grantee’s financial condition is acceptable for performing on
Government grants. Our examination of BIOS’ financial capability disclosed that it will be
capable of performing on its Government grants in the near-term.

SIGNIFICANT ISSUES:

    •    BIOS projects adequate cash flow through March 31, 2009;
    •    BIOS liquidates its accounts payable on a timely basis;
    •    BIOS is current in paying payroll taxes;
    •    BIOS reported a positive net worth which increased during the period evaluated;
    •    BIOS’ working capital favorably increased from XXXXXXXXXX between for
         FYs 2005 and 2007;
    •    XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
         XXXXXXXXXXXXX
    •    BIOS is complying with its loan agreements and covenants, and its loans are paid in a
         timely basis; and
    •    XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX




                                    XXXXXXXXXXXXXX
Audit Report No. 1271-2008F17600005

                                     SCOPE OF AUDIT

    We conducted our examination in accordance with generally accepted Government auditing
standards. Those standards require that we plan and perform the examination to obtain
reasonable assurance about whether the data and records reviewed are free of material
misstatement. An examination includes:

    •    Obtaining an understanding of the grantee’s internal controls and determining the
         extent of audit testing needed based on this understanding of internal controls;
    •    examining, on a test basis, evidence supporting the amounts and disclosures in the data
         and records examined;
    •    assessing the accounting principles used and significant estimates made by the grantee;
    •    evaluating the overall data and records presentation; and
    •    determining the need for technical specialist assistance.

     We used the criteria contained in NSF Grant Policy Manual (GPM), Award Guidelines
Section A(3) in the performance of this examination. Our examination of BIOS’ financial
capability and its ability to perform on Government grants was based primarily on our review of
the following areas:

    •    Financial statements and related statement of cash flows;
    •    Grantee’s confirmation of off-balance sheet arrangements and related party
         transactions;
    •    Cash flow analyses including cash flow projections;
    •    Financial ratios and trends;
    •    Loan agreements/guarantees;
    •    Liquidation of accounts payable;
    •    Minutes of meetings of board of directors; and
    •    Payroll tax returns.

    BIOS claims exemption under 48 CFR 9903.201-1(b)(7) from the practices required by the
Cost Accounting Standards Board rules and regulations because the company's grants are
executed and performed entirely outside the United States, its territories, and its possessions.

     As reported in Audit Report No. 1271-2007F17740001, dated May 24, 2007, we considered
BIOS’ accounting system inadequate in part, as described in the Grantee Organization and
Systems section of this report, Page 5. BIOS’ accounting system is deficient in complying with
the requirements of the Office of Management and Budget (OMB) Circular A-122,
Attachment A, Paragraph E.2.f. However, the identified deficiency does not affect the scope of
this audit. The scope of our examination reflects our assessment of control risk and includes
audit tests designed to provide a reasonable basis for our opinion.



                                               2

                                   XXXXXXXXXXXXXX
Audit Report No. 1271-2008F17600005

                                    RESULTS OF AUDIT

     In our opinion, the grantee’s financial condition is acceptable for performing on
Government grants. Our examination of BIOS’ financial capability disclosed that it will be
capable of performing on its Government grants in the near-term (up to one year from the date of
this report). For additional details on key financial information, reference the Appendix to this
report, Page 9.

     BIOS projects adequate cash flow through March 31, 2009. Total net cash for the current
fiscal year ending December 31, 2008, is projected to be $XXXXXXX, and for the quarter ended
March 31, 2009, is projected to be $ XXXXXX. The projected revenues and other contributions
are based on existing grants and recurring donations only. We consider the overall cash flow
projections reasonable.

    We reviewed the accounts payable aging schedules from May 2008 through July 2008, and
determined that the grantee is current in liquidating its accounts payable. On a test basis, we
compared debts cancellation dates with cancelled checks. We evaluated the number of days
outstanding in the accounts payable aging schedules and did not find any significant payables
over 90 days, or deviations from accounts payable procedures.

    BIOS is current in paying its payroll taxes to the Internal Revenue Service (IRS). On a test
basis, we reviewed BIOS’ payroll quarterly federal tax returns, along with documentation to
substantiate that the payments were made.

     BIOS reported substantial net worth (Total Net Assets) of XXXXX       XX million during
FYs 2005, 2006 and 2007, respectively. The consistent and substantial net worth is a favorable
indicator of the grantee’s financial condition.

   XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXX

     xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
(see Appendix Item No. 5, Page Error! Bookmark not defined., for detailed information).

    BIOS complies with its loan agreements and covenants, and its loans are paid in a timely
basis. The loan balances xxxxxxxxxxxxxxxxxxx in FY 2005, to xxxxxxxxxxxxxfor the interim
period ended June 30, 2008.

    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxx



                                               3

                                   XXXXXXXXXXXXXX
Audit Report No. 1271-2008F17600005

    Additionally, we evaluated areas of concern identified by NSF and included specifically in
our scope of audit, as summarized below. For additional details of our evaluation, reference the
Appendix to this report, Page 9, and referenced notes.

    •    Statement of Activities’ reclassifications for comparative purposes, refer to Note 4 (g);
    •    Statement of Financial Position’s Retention Payable, refer to Note 4 (b);
    •    Statement of Financial Position’s Trustee Loans, refer to Note 2 (c);
    •    Statement of Financial Position’s Grants and Other Advances, refer to Note 4 (a); and
    •    Statement of Activities’ Other Income, refer to Note 4 (f) 1.

     We discussed the results of audit with xxxxxxxxxxxxxxxxxxxxxxxxx                 xxxxx
xxxxxxxxxxxxxxxxxx in an exit conference held on September 17, 2008. At the request of NSF,
we provided the grantee a draft copy of the audit report on September 30, 2008. Accordingly,
the grantee concurred with the results of audit.




                                                4

                                    XXXXXXXXXXXXXX
Audit Report No. 1271-2008F17600005

                       GRANTEE ORGANIZATION AND SYSTEMS

1.    Organization:

     The Bermuda Institute of Ocean Sciences, Inc. (BIOS) formerly Bermuda Biological Station
for Research, Inc. (BBSR) was founded in 1903 by scientists as a station for research in biology
and zoology. BBSR was incorporated in New York in 1926 as a United States not-for-profit
organization and by 1932 its present location was opened in Ferry Reach, St. George's, Bermuda.
BBSR changed its name to Bermuda Institute of Ocean Sciences, Inc. (BIOS) on April 4, 2007,
to reflect the change of the research station into an institute focused on the study of marine and
atmospheric systems. BIOS’ revenues for its fiscal year ending December 31, 2007, were
approximately $12.3 million, of which approximately 45 percent were from the United States
Federal Government.

 2.   Accounting System:

     As reported in Audit Report No. 1271-2007F17740001, dated May 24, 2007, BIOS’
accounting system is inadequate in part for accumulating and billing costs under Government
awards. BIOS’ accounting system was deficient in complying with the requirements of the
Office of Management and Budget (OMB) Circular A-122, Attachment A, Paragraph E.2.f. We
did not perform a comprehensive examination of the contractor’s overall accounting system and
its related internal control. Accordingly, we express no opinion on BIOS’ system of internal
control taken as a whole.

    BIOS’ accounting period is from January 1st to December 31st. BIOS maintains an
accounting system on the accrual basis in accordance with generally accepted accounting
principles. BIOS’ accounting system is posted on a current basis. Appropriate adjusting entries
are made at the end of each month and at year end. BIOS’ prepares financial statements on an
annual basis. The annual financial statements are audited by O’Connor, Davies, Munns, and
Dobbins, LLP, Accountants and Consultants.

    BIOS maintains a job cost accounting system which is fully integrated in the overall
accounting system, wherein grants are assigned individual project numbers and direct costs are
identified and charged to those numbers. Indirect costs are identified and accumulated under
individual departments, which in turn are identified to the various indirect cost pools. Indirect
expenses are grouped in indirect pools. The following schedule describes BIOS indirect cost
pools and related allocation bases, and the type of effort normally charged direct and indirect:

                            Indirect Cost Pools and Allocation Bases

Indirect Cost Pool                                       Allocation Base
Resident Science                 Total direct costs excluding capital expenditures in excess of
                                 $xxxxx each, individual subcontract costs in excess of $ xxxxx
                                 and participant support costs.
Ship Operations                  Total direct costs excluding dry dock overhauls and participant
                                                5

                                    XXXXXXXXXXXXXX
Audit Report No. 1271-2008F17600005

                                support costs.
     The Following Effort Is Normally Charged Direct:

     •   Direct time of direct labor employees;
     •   Premium (overtime, shift, field) time of direct labor;
     •   Raw material, purchased parts and subcontracted items;
     •   Travel expenses incurred by direct employees;
     •   Freight charges for direct raw materials, purchased parts, and subcontracted items;
     •   Purchase, fabrication or rental of special tooling or test equipment;
     •   Professional services and consultant fees for direct effort; and
     •   Temporary help to perform direct effort.

     The Following Effort Is Normally Charged Indirect:

     •   Management, supervisory, and clerical salaries;
     •   Indirect time of direct employees;
     •   Premium (overtime and shift) of indirect employees;
     •   Social Security, unemployment insurance, workmen's compensation, group insurance,
         pension expense, vacation and holiday pay;
     •   Travel expense associated with indirect labor effort; and
     •   Other expenses such as general operating supplies, depreciation, utilities, rental costs of
         facilities, and general purpose equipment.

3.   Billing System:

    As reported in Audit Report No. 1271-2007F17740001, dated May 24, 2007, BIOS’
accounting system is inadequate in part for billing costs under Government contracts. Our
examination was limited to determining whether BIOS’ accounting system is adequate for
accumulating and billing costs under Government contracts. We did not perform a
comprehensive examination of the contractor’s overall accounting system and its related internal
control. Accordingly, we express no opinion on BIOS’ system of internal control taken as a
whole. BIOS processes its billings electronically via the National Science Foundation’s Fast
Lane Cash Request System.




                                                 6

                                    XXXXXXXXXXXXXX
Audit Report No. 1271-2008F17600005

                                      DCAA PERSONNEL

                                                                       Telephone No.
Primary contacts regarding this audit:

         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                      Xxxxxxxxxxxxxxxxxxxxxxxxx
         Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                      Xxxxxxxxxxxxxxxxxxxxxxxxx
         Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                      Xxxxxxxxxxxxxxxxxxxxxxxxx

Other contacts regarding this audit report:

         Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                      Xxxxxxxxxxxxxxxxxxxxxxxx
         Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                      Xxxxxxxxxxxxxxxxxxxxxxxx

                                                                       FAX No.
         Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                      Xxxxxxxxxxxxxxxxxxxxxxxx
         Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                      Xxxxxxxxxxxxxxxxxxxxxxxx

                                                                      E-mail Address
         Tampa Bay Branch Office                                  dcaa-fao1271@dcaa.mil


General information on audit matters is available at http://www.dcaa.mil.


                                      RELEVANT DATES

Request for Audit:      Office of Inspector General, National Science Foundation (NSF),
                        Dated December 7, 2007.

Due Date Extension:     Coordinated on September 26, 2008, Extended to October 31, 2008.


AUDIT REPORT AUTHORIZED BY:



                                                    /signed/
                                                    Gary R. Ricketts
                                                    Branch Manager
                                                    DCAA Tampa Bay Branch Office




                                               7

                                     XXXXXXXXXXXXXX
Audit Report No. 1271-2008F17600005

                AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION                                              E-mail Address

National Science Foundation                          dcureton@nsf.gov
ATTN: Deborah H. Cureton
Associate Inspector General for Audit
4201 Wilson Boulevard
Arlington, VA 22230

National Science Foundation                          smcgrego@nsf.gov
ATTN: Sherrye McGregor
Attorney Advisor
4201 Wilson Boulevard
Arlington, VA 22230

Bermuda Institute of Ocean Sciences, Inc.            (Copy furnished thru NSF)
17 Biological Lane, Ferry Reach
St. George’s GE 01, Bermuda

Defense Contract Audit Agency                        DCAA-SRFLA-NONDoD-
ATTN: OAL - Sr. FLA Non-DoD Army Team 1 xxxxxxxxxx   xxxxxxxxxxxxxxxxxxxxx
8725 John J. Kingman Road, Suite 2135
Fort Belvoir, VA 22060-6219                              Telephone No.
                                                     Xxxxxxxxxxxxxxxxxxxxx


RESTRICTIONS

1. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

2. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

3. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                            8

                                   XXXXXXXXXXXXXX
Audit Report No. 1271-2008F17600005                                          APPENDIX
                                                                             Page 1 of 12
                       KEY FINANCIAL DATA AND INFORMATION

    The grantee’s key financial data and other information used in this examination are listed
below:

1.   Cash Flow

     As summarized in the table below, BIOS reported xxxxxxxxxxxxxxxxxxxx in cash from
operations, investing, and financing of xxxxxxxxxxx      xxxxxxxxin its audited financial
statements for FYs 2005, 2006 and 2007, respectively.

                                             Audited     Audited       Audited
                                             FY 2005     FY 2006       FY 2007
                                              xxxxxxx    Xxxxxxx
                                                                       Xxxxxxx
                 Cash Beginning Balance      Xxxxxx        Xxxxx        xxxxx

                 Net Cash Flow from:
                  Operations                  Xxxxx        Xxxxx        Xxxxx
                  Investing                   Xxxxx        Xxxxx        Xxxxx
                  Financing                   Xxxxx        Xxxxx        Xxxxx
                 Net Increase/(decrease)      Xxxxx        Xxxxx        Xxxxx

                 Cash, Ending Balance         Xxxxx        Xxxxx        Xxxxx

     Additionally, BIOS provided cash flow projections showing projected operating income and
expenses, as well as detailed cash inflows/outflows for the period April 1, 2008 through
March 31, 2009. We reviewed the grantee’s cash flow projections, which projects a Xxxxx
Xxxxx Xxxxx Xxxxx X, and a cash ending balance of $ Xxxx x. We compared the cash flow
projections to historical actuals. Also, we reviewed the grantee’s assumptions used to develop
the projected cash flow from operations including projected operating revenues and expenses.
Finally, we considered other relevant data including existing grants, and debt agreements. In our
opinion, the grantee’s cash flow projection summarized below is reasonable.

                                                         Projected through
                                                            March 2009
                                                               (000's)
                      Cash, Beginning Balance             Xxxxx

                      Total Sources of Funds              Xxxxx
                      Total Uses of Funds                Xxxxx
                      Net Cash Increase (Decrease)         Xxxxx

                      Cash, Ending Balance               Xxxxx
                                                9

                                    XXXXXXXXXXXXXX
Audit Report No. 1271-2008F17600005                         APPENDIX
                                                            Page 2 of 12




                       This page redacted in its entirety




                                      10

                              XXXXXXXXXXXXXX
Audit Report No. 1271-2008F17600005                                         APPENDIX
                                                                            Page 3 of 12

    a. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx       xx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        xx
x xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      x
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        x
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        x
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        x
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
    b.
3. Liquidation of Accounts Payable

    Based on our review of BIOS’ accounts payable aging reports as of May 31, 2008,
June 30, 2008, and July 31, 2008, we determined that the grantee is liquidating its accounts on a
timely basis. On a test basis, we traced paid amounts to cancelled checks to determine the
timeliness of the grantee’s liquidation of accounts payable, and found no unusual items. We x
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

x xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

x xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx x
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx x
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx x
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx x
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx x
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx x
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx x
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

4.   Key Financial Data

     The key financial data listed below is from BIOS’ audited financial statements for the FYs
ended December 31, 2005, 2006, and 2007; and for the unaudited data for the interim period
ended June 30, 2008. As indicated below, the interim statement of activities data as of
June 30, 2008, was annualized and may not be representative of the full accounting period.
BIOS’ key financial statement data was used to compute key financial ratios and is summarized
as follows:




                                               11

                                   XXXXXXXXXXXXXX
Audit Report No. 1271-2008F17600005                    APPENDIX
                                                       Page 4 of 12




 This page redacted in its entirety




                                            12

                                      XXXXXXXXXXXXXX
Audit Report No. 1271-2008F17600005                                             APPENDIX
                                                                                Page 5 of 12
 *        Interim statement of activities data was annualized based on the results for the six months
          ended June 30, 2008. Financial data less than one year may show trends that are not
          representative of the full business cycle.

 ** FY 2005 G&A and other expenses are reclassified for comparative purposes; see Note g.

     a.     Grant and Other Advances

         Grant and other advances are deferred revenue. BIOS do not consider revenue as earned
until the expenses are incurred, thus those grants that have funding provided in advance of
expenditures generate deferred revenue. We reviewed a breakdown of the liability as of
December 31, 2005 through 2007, as reported in the audited financial statements. We reconciled
the financial statements’ amounts to BIOS’ trial balances. Grant and other advances as
summarized below:

           Redacted




         We evaluated BIOS detailed trial balances to review if there are any grant advances
pertaining to NSF. The only NSF related amount, is from the Major Overhaul Shipyard Account
(MOSA) during FY 2007. The amount is funded by NSF, and budgeted for a period of 5 years.
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
x xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                    x
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

         BIOS is allowed to request bi-monthly reimbursements from NSF, and to take cash
advances at anytime. Monthly internal reconciliations are performed, and quarterly submitted to
NSF in the SF 272A. Therefore, we determined the MOSA advance (xxxxxxxxxx, is allowable
and in compliance with the awards’ terms and conditions.

     b. Retention Payable

      BIOS reported retention payable of $xxxxxxxx on December 31, 2005, and $xxxxxx for
December 31, 2006 and 2007. The retention pertains to the construction of BIOS’ staff housing.




                                                  13

                                       XXXXXXXXXXXXXX
Audit Report No. 1271-2008F17600005                                             APPENDIX
                                                                                Page 6 of 12
        The construction contract includes provisions for various withholdings “retention”
generally in the amount of xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx               xxxxx.
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                    x
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                    x
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

    c.   Long Term Liabilities

       x xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
x xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx      x
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        x
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx        x
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

    d. Net Assets (Net Worth)

x xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                             x
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                               x
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                               x
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

         BIOS is required to report information regarding its financial position and activities
according to three classes of net assets: permanently restricted, temporarily restricted, and
unrestricted. Gifts and bequests that create endowment funds to provide a permanent source of
income are classified as permanently restricted net assets. Gifts with stipulations that they be
used for a particular purpose for a specified time period are classified as temporarily restricted
assets until the purpose or stipulated time restriction is met. All other net assets are classified as
unrestricted.

       BIOS net worth including temporarily and permanently restricted net assets for
FYs 2005 through 2007 is summarized below:




                                                 14

                                     XXXXXXXXXXXXXX
This Remainder of this Report has been Redacted in its Entirety




                   XXXXXXXXXXXXXX
